                      OFFICE OF THE INSPECTOR GENERAL
                       CORPORATION FOR NATIONAL AND
                             COMMUNITY SERVICE




                          Follow-up Audit of the Corporation's
                                Procurement Operations


                            OIG Audit Report Number 00-12
                                    June 6,2000




                                          Prepared by:

                                    Cotton & Company LLP
                               333 North Fairfax Street, Suite 401
                                  Alexandria, Virginia 223 14

                                 Under Department of State OIG
                            Contract # S-OPRAQ-99-D-0021 -CNS-07




This report was issued to Corporation management on September 25,2000. Under the laws
and regulations governing audit follow up, the Corporation must make final management
decisions on the report's findings and recommendations no later than March 26,2001, and
complete its corrective actions by September 25, 2001. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                           Office of the Inspector General                                CORPORATION
                   Corporation for National and Community Service
                                                                                           FOR NATIONAL

                          Follow-up Audit of the Corporation's
                                Procurement Operations
                           OIG Audit Report Number 00-12



The Office of the Inspector General engaged Cotton & Company to conduct a follow-up audit of
the Corporation for National and Community Service's procurement operations. In a fiscal year
1998 audit, OIG found that the Corporation lacked an effective procurement system and that the
Corporation's procurement process was vulnerable to fraud, waste, and abuse.

This follow-up audit assessed the Corporation's current procurement operations, and particularly,
the effectiveness of corrective action implemented in response to the previous OIG audit report.
Cotton & Company concentrated its testing in the period after corrective actions had reportedly
been made by the Corporation, in order to assess the effectiveness of those corrective actions.
The audit was conducted in accordance with Government Auditing Standards, 1994 Revision.

 This current audit concludes that the Corporation's procurement process is still vulnerable to
fraud, waste and abuse. The rate of errors discovered by the auditors is signijicant, and in the
judgment of the auditors, indicates that the Corporation's internal controls are not working
 effectively. The auditors noted that nine of 19 previously identiJied dejiciencies still exist.
 Therefore, the auditors also conclude that the Corporation has not taken adequate corrective
 action on the prior report's recommendations. We have reviewed the report and work papers
 supporting its conclusions and agree with thefindings and recommendations presented.

We provided a copy of a draft of this report to the Corporation for comment. The Corporation's
response (Appendix 2) to the draft report disagrees with the findings and recommendations. CNS
acknowledges that errors were made in procurement, but goes on to state that the errors were
minimal and did not rise to the level of significance that they should be reported.




                                                                                       Inspector General
                                                                                       1201 New York Avenue, NW
                                                                                       Washington, I X 20525
              COTTON &COMPANYLLP



                                                   June 6,2000


Inspector General
Corporation for National Service

       At your request, we conducted a follow-up audit of the Corporation for National Services
procurement operations.

         Our audit was conducted in accordance with Government Auditing Standards, 1994 Revision,
applicable to performance audits. The enclosed report sets forth results in briefi background; objectives,
scope, and methodology; findings and recommendations; management controls; conclusions; and current
status of prior audit findings.

        We understand that this audit was requested for the purpose of determining if (1) the
Corporation's corrective actions in response to OIG Report No. 98-24 are adequately designed and
responsive to the deficiencies identified in that report and (2) the corrective actions have been
implemented and have resulted in improvements to the Corporation's procurement operations.




                                             By:
                       OFFICE OF THE INSPECTOR GENERAL
                      CORPORATION FOR NATIONAL SERVICE

                     FOLLOW-UP AUDIT OF THE CORPORATION'S
                           PROCUREMENT OPERATIONS
                         OIG AUDIT REPORT NUMBER 00-12

                              TABLE O F CONTENT


TRANSMITTALS


                                                                                      1
RESULTS IN BRIEF


BACKGROUND                                                                            3


                                                                                      4
OBJECTIVES, SCOPE,
AND METHODOLOGY


FINDINGS AND                                                                          5
RECOMMENDATIONS


                        The Corporation Did Not Take Corrective Actions in a
                        Timely Manner

                        The Corporation Continues to Use an Illegal Contracting
                        Form

                        The Corporation Continues to Make Unauthorized
                        Commitments

                        Noncompliance with the Federal Acquisition Streamlining Act   13
                        Continues

                        The Corporation Continues to Inadequately Evaluate Bids       15
                        and Proposals

                        The Corporation Continues to Perform Inadequate Reviews
                        of Contractor Payments

                        The Corporation Continues to be in Noncompliance with the     17
                        Prompt Payment Act

                        The Corporation Continues to Make Unallowable and             19
                        Unsupported Credit Card Purchases

                        The Corporation Continues to Have Instances of Inconsistent   21
                        or Inadequate Contract Terms

                        The Corporation Continues to Award Sole Source Purchase
                        Orders Without Adequate Justifications
MANAGEMENT           24
CONTROLS


CONCLUSIONS          24


CURRENT STATUS OF    25
PRIOR AUDIT
FINDINGS


APPENDIX 1
STATUS OF REPORT
NO. 98-24 FINDINGS


APPENDIX 2
CORPORATION
RESPONSE
                   We conducted a follow-up audit of the Corporation's procurement
RESULTS IN BRIEF
                   operations. Our audit was conducted in accordance with Government
                   Auditing Standards, 1994 Revision, applicable to performance audits.

                   Office of Inspector General (OIG) Audit Report No. 98-24, issued September
                   30, 1998, found that the Corporation had inadequate procedures for
                   contractor selection and award and contract administration, monitoring, and
                   oversight. The primary objectives of our audit were to assess if (1) the
                   Corporation's corrective actions in response to OIG Report No. 98-24 are
                   adequately designed and responsive to the deficiencies identified in that
                   report and (2) the corrective actions have been implemented and have
                   resulted in improvements to the Corporation's procurement operations.

                   We noted that 9 of the 19 deficiencies noted previously still exist. Further,
                   the Corporation did not issue all policies and procedures designed to address
                   the prior procurement audit findings until more than a year after the prior
                   audit report was issued. (Seepage 5.)

                   We concluded that the Corporation has not taken adequate corrective action
                   on the prior-report recommendations and continues to be vulnerable to fraud,
                   waste, and abuse. We further concluded that the Corporation's contracting
                   and procurement operations continue to be a material weakness and should
                   be reported as such under the Federal Managers' Financial Integrity Act
                   (FMFIA).

                   We identified the following deficiencies:

                       The Corporation continues to use an illegal contracting form:

                           It currently has several contracts that include cost-plus-percentage-
                           of-cost provisions. (See page 6.)

                           The memorandum of decision supporting award of an advertising
                           contract provides that the contractor will not credit the Corporation
                           for commissions earned from the media. Also, Section B.2 of the
                           contract requires the Corporation to pay a 15-percent markup on
                           advertising placements if the contractor does not receive a
                           commission (cost-plus-percentage-of-cost). (See page 8.)

                       The Corporation continues to make unauthorized commitments. We
                       noted a number of instances in which vendors and contractors provided
                       services before being issued a contract or purchase order:

                           Three purchase orders for annual requirements were issued after the
                           vendor had started providing services. (Seepage 9.)

                           Two facilities support contracts were awarded after the contractor
                           had begun providing services. (See page I I .)
    A purchase order for advertising was issued on September 29, but
    the first invoice for these services covered the September issue.
     (See page 13.)

The Corporation continues to be in noncompliance with the Federal
Acquisition Streamlining Act. It awarded four purchase orders under
$100,000 to firms not classified as small businesses without documented
justification. (Seepage 13.)

The Corporation continues to inadequately evaluate bids and proposals.
It made calculation errors in analyzing offeror cost proposals on two of
the contract awards tested. (Seepage 15.)

The Corporation continues to perform inadequate reviews of contractor
payments. Three payment vouchers did not agree with purchase-order
terms or with supporting documentation. (Seepage 16.)

The Corporation continues to be in noncompliance with the Prompt
Payment Act (PPA). We noted the following (seepage 17):

    Of 25 purchase-order payments tested, five were paid late and thus
    incurred a PPA interest penalty. The Corporation underpaid the
    interest due on the five late payments, because it had not updated the
    Treasury Renegotiation rates in Momentum (the Corporation's
    accounting system) since September 13, 1999.

    Several invoices on contracts reviewed were paid late and incurred
    interest penalties.

    We noted that invoices were stamped "received" more than 15 days
    after the invoice date on 8 of the 25 purchase orders tested.

The Corporation continues to make unsupported and prohibited credit
card purchases, as follows (seepage 19):

    Nine credit card statements were not signed by the cardholder, and
    one was not signed by the approving official.

    Several credit card statements had charges for Internet connections.

    One credit card statement had charges that exceeded the
    Corporation's purchase card ceiling.

    Six of the 42 tested cardholder statements had some missing
    documentation.

We noted additional instances of inconsistent or inadequate contract
terms. Five of the contracts tested were awarded to hotels.
Inconsistencies exist between contract provisions and work orders issued
by the Corporation for two of these. In addition, winning proposals for
                two hotel contracts did not include gratuities in prices proposed for
                meals, although gratuities were included in the vendor invoices. (See
                page 21.)

                The Corporation continues to award sole-source purchase orders without
                adequate justification. The purchase-order worksheets for purchases
                from GSA multiple award schedule vendors do not indicate the selection
                basis. Three of the purchase orders tested were for services. GSA
                service ordering procedures require that ordering offices prepare a
                request for quotes, transmit these to contractors, and evaluate the quotes
                to select a contractor. (See page 22.)

             The Corporation was created by the National and Community Service Trust
BACKGROUND
             Act of 1993. Through several programs, the Corporation offers Americans
             of all ages and backgrounds the opportunity to participate in community-
             based service programs. These programs include AmeriCorps, VISTA, the
             National Civilian Community Corps (NCCC), Learn and Serve America, and
             the Senior Volunteer Program. The Corporation also oversees continuing
             activities initiated by two predecessor agencies: the Commission for
             National and Community Service and ACTION.

             On September 30, 1998, the OIG issued a report (No. 98-24) on an audit of
             the Corporation's contract and procurement processes and procedures during
             the period October 1996 through February 1998. This report concluded that
             the Corporation lacked an effective procurement system, and that it had not
             complied with all applicable statutory and regulatory requirements. Further,
             the Corporation had inadequate procedures for contractor selection and
             award and contract administration, monitoring, and oversight. Moreover, the
             number, nature, and significance of the audit findings indicated that the
             Corporation's procurement process was vulnerable to fraud, waste, and
             abuse.

             In response to the audit report, the Corporation issued a Management
             Decision dated August 6, 1999. On January 27,2000, the Audit Resolution
             Manager notified the OIG that all corrective action related to OIG Report No.
             98-24 had been completed, and that all of the planned actions described in
             the Management Decision had been implemented. This corrective action
             included changes to policies and procedures, as well as contract specific-
             actions. The Corporation issued Policy No. 350 (Procuring Supplies and
             Services) on September 30, 1999, and Procurement Directives Nos. 001
             through 007 on December 17, 1999.

             Contract-specific actions included:

                 The Corporation began collection proceedings to recover $8,209 in fees
                 charged on a cost-plus-percentage-of-cost basis under Contract No. 96-
                 743-1002.

                 The Corporation modified Contract No. 97-743-1005 to eliminate
                 contradictory contract terms regarding the reimbursement of general and
                 administrative (G&A) costs.
                        The Corporation allowed three contracts identified in the prior audit as
                        personal services contracts to expire.

                        The Corporation recovered $94,091.20 of approximately $452,000
                        identified in the prior audit as overpaid indirect costs under Contract No.
                        94-002. (This contract is currently under audit by the Office of Inspector
                        General).


OBJECTIVES, SCOPE,
AND METHODOLOGY

Objectives           Our primary audit objectives were to determine if:

                        Corrective actions taken by the Corporation in response to OIG Report
                        No. 98-24 are adequately designed and responsive to the deficiencies
                        identified in that report.

                         Corrective actions have been implemented and have resulted in
                         improvements to the Corporation's procurement operations.
                                         ~~   ~   -   --   -




Scope and Scope      The audit scope was limited to the Corporation's Headquarters procurement
Limitations          activity from October 1, 1998, to March 3 1,2000. We conducted a limited
                     review of two cooperative agreements active during the current audit period.
                     Because the Corporation's revised procurement policies and procedures were
                     not effective until September 30, 1999, we concentrated most of our
                     transaction testing on those contract actions and purchase orders issued
                     during the fourth quarter of Fiscal Year (FY) 1999 and the first half of FY
                     2000. Procurements during this period encompassed 10 contracts and 105
                     purchase orders. We also tested credit-card purchase activity from October
                     1, 1998, to March 3 1, 2000. We completed our fieldwork on June 6, 2000.
                     We did not audit the allowability of costs claimed under any procurements,
                     and we did not test compliance with terms of specific contracts, purchase
                     orders, or cooperative agreements to the extent necessary to provide financial
                     and compliance opinions on any procurements. We did not review
                     procurements made by the five Corporation service centers.

Methodology          Our methodology included reviews of procurement files, cooperative
                     agreement files, and related Corporation accounting records and discussions
                     with procurement personnel. We also interviewed other appropriate
                     Corporation personnel. We reviewed 10 contract files (all those awarded
                     during the period described above), two cooperative agreement files, a
                     judgmental sample of 33 purchase order files, and a judgmental sample of 42
                     credit-card statements to determine if the Corporation's corrective actions
                     had been implemented and had resulted in improvements to the
                     Corporation's procurement operations.
FINDINGS AND
RECOMMENDATIONS

The Corporation Did Not      The Corporation did not complete its corrective actions in response to the
Take Corrective Actions in   prior audit in a timely manner. Audit Report No. 98-24 was issued
a Timely Manner.             September 30, 1998. The Corporation issued Policy No. 350, Procuring
                             Supplies and Services, on September 30, 1999. It did not, however, issue
                             Procurement Directives Nos. 001 through 007 designed to address a number
                             of the prior procurement audit findings, until December 17, 1999. Further, in
                             response to the finding that purchase orders contain inconsistent and
                             contradictory terms, the Corporation's corrective actions include installation
                             of a new Desktop Procurement System. This system was not installed until
                             the fourth quarter of FY 2000.

                             OMB Circular A-50, Audit Follow-up, Paragraph 8.a. states: "Agencies
                             shall assign a high priority to the resolution of audit recommendations and to
                             corrective action. Systems for resolution and corrective action must meet the
                             following standards:. . .(2). ..Resolution shall be made within a maximum of
                             six months after.. .receipt of the report by the Federal Government.
                             Corrective action should proceed as rapidly as possible."

                             Corporation Policy No. 101, Section II.C, Final Action, states: "Final action
                             must be completed within twelve months of the date the audit report was
                             issued."

                             The Corporation's failure to implement appropriate corrective actions on a
                             timely basis has extended the Corporation's vulnerability to fraud, waste, and
                             abuse.

Recommendation               We recommend that the Corporation implement monitoring and oversight
                             procedures to ensure that corrective action is taken in a more timely manner.

                             Corporation Management's Comments

                              While the Corporation will accept valid criticism of the time it took to initiate
                             procedures, it does not agree that this delay extended its vulnerability to
                             fraud, waste, and abuse. The Corporation has implemented monitoring and
                              oversight procedures that now provide it with adequate assurance that
                              corrective actions are taken in a timely manner. In addition, the
                              Corporation 's senior management is actively and directly involved in
                              monitoring and overseeing improvements in the Corporation's operations.

                             Among the tools utilized by the Corporation to provide reasonable assurance
                             that corrective actions are implemented is the Action Plan. The Action Plan
                             includes speciJic goals, objectives, individual tasks, and milestone dates for
                             completing actions. Goal 9 in the Action Plan speczjically addresses the
                             Corporation 's procurement operations. Senior management regularly
                             reviews the status of actions under the plan and maintains detailed
                             documentation in support of completed actions. In addition to its use by the
                              Corporation to monitor corrective actions, the Action Plan is transmitted to
                              the Congressfor its use in overseeing the Corporation's operations.

                              Furthermore, the Corporation maintains information on audit
                              recommendations in an audit resolution database. The database is used to
                              generate reports to management on the status of corrective actions and
                              milestones for completing various tasks. Management review of these
                              reports has resulted in the reprioritization of work to focus staffattention on
                              actions coming due. In fact, reports from the database are periodically
                              provided to the OIG.

                              Finally, to provide an objective review of the issues presented in this audit
                              report, the Corporation will seek contractor support to provide assistance in
                              reviewing its contracting operations and correcting the areas determined to
                              be weaknesses or vulnerabilities. The Corporation has recently contracted
                              with Acquisition Solutions, Inc., obtaining a subscription service for
                              acquisition support. This service will provide "on-call " research assistance
                              on a transaction-by-transaction basis. This will enable the Corporation to
                              seek expert guidance on contracts and purchase orders in advance of the
                              action in those areas that have proven troublesome in the past.

The Corporation               During our review, we noted two findings related to cost-plus-percentage-of-
Continues to Use an Illegal   cost (CPPC) contracts:
Contracting Form.
                              Finding 1

                              OIG Report No. 98-24 identified a time-and-materials (T&M) contract under
                              which the contractor was billing for other direct costs (ODCs) plus a 4-
                              percent fee. This is a cost-plus-percentage-of-cost(CPPC) arrangement. The
                              Corporation's corrective action was to modify the contract to delete the 4-
                              percent fee and to recover these fees from the contractor. We found,
                              however, that the Corporation continues to issue contracts with CPPC
                              provisions. We identified eight, as follows:

                                  Contract No. 199911220001 includes a 5-percent purchase fee on
                                  clothing and support items.

                                  Contract No. 97-743-1006 includes a fixed 14.77-percent consultant
                                  handling rate on consultant costs.

                                  Contract No. 200003060001 includes a fixed 15-percent materials
                                  handling rate on other direct costs.

                                  The Corporation currently has five hotel contracts under which vendors
                                  are billing gratuities at 18-percent of meal costs.

                              FAR 16.102{c) states: "The cost-plus-a-percentage-of-costsystem of
                              contracting shall not be used."
                 In addition, FAR 16.601{b}(2) states: "When included as part of material
                 costs, material handling costs shall include only costs clearly excluded from
                 the labor-hour rate. Material handling costs may include all appropriate
                 indirect costs allocated to direct materials in accordance with the contractor's
                 usual accounting procedures consistent with Part 3 1."

                 The FAR does not allow CPPC contracts, because this form of contracting
                 provides an incentive to increase costs and a disincentive to control costs.

                 OPS is modifying Contract No. 200003060001 to include FAR 52.216-7,
                 Allowable Cost and Payment, and intends a similar modification to Contract
                 No. 97-743-1006. This contract clause provides for the establishment of
                 final indirect cost rates based on the contractor's actual cost experience.

Recommendation   We recommend that the Corporation similarly amend Contract No.
                 199911220001, and that all contract amendments eliminate any reference to
                 the rates as "fixed." We also recommend that the Corporation develop a
                 written policy prohibiting cost recovery as a fixed percentage of direct costs
                 in its contracts. Finally, we recommend that the Corporation negotiate fixed
                 amounts on each work order to reimburse hotel contractors for meal service.

                 Corporation Management's Comments

                  The Corporation is not using an illegal contractingform. However, we will
                  amend Contract No. 199911220001 to eliminate any reference to the rates as
                 fixed. We believe that there may be a semantics issue involved here. We do
                  not agree that the orders cited constitute cost-plus-percentage-of cost
                  contracts. It may be that the terminology being used gives the appearance of
                  cost-plus-percentage-of cost language; however, the intent here is to provide
                  allowable compensation to contractorsfor the administrative expense
                  associated with Other Direct Costs. Since the amount of Other Direct Costs
                  cannot be determined in advance, they must be estimated. The impact of
                  these cost elements is usually minor as they generally represent a small
                 percentage of the overall contract value. Handling costs are permitted in
                  accordance with the contractor's usual accounting procedures (see FAR
                  16.601(b)). In addition, a profit on material costs (as long as the costs are
                  not also included aspart of thefixed hourly labor rate) is also pennitted (see
                  FAR 16.602(b)(iii)).

                 We also do not believe the development of a written policy is necessary. In
                 the one example cited, human error was the cause. A policy would not
                 ensure an error is never made again. In the other example, because the
                 number of attendees at an event can change significantly after contract
                 award, negotiatingfixed amounts on each work order for meals would result
                 in the waste of Corporation funds. Accordingly, the Corporation will utilize
                 the contract vehicle that will provide the best value to the government as
                 determined on a case-by-case basis.
Auditor's Additional Comments

The Corporation cites FAR 16.602(b)(iii) in its response to the draft audit
report. No such FAR section exists. We believe that it intended to cite FAR
16.601(b)(3)(iii); this section, however, only applies "[wlhen the nature of
the work to be performed requires the contractor to furnish material that it
regularly sells to the general public in the normal course of its business.. .."
This is not applicable to any of the contracts described above.

We continue to believe that the Corporation needs a written policy
prohibiting cost-plus-percentage-of-cost contracts. It is obvious from the
contracts that we reviewed, and from the Corporation's response to our draft
audit report, that there is confusion regarding what constitutes a cost-plus-
percentage-of-cost contract. A written policy would ensure that employees
are aware of the prohibition and should clear up this confusion.

Finding 2

The Corporation also issued Contract No. 99-743-4002 for advertising
services in Fiscal Year 1999. This is a time and materials contract with a
provision for reimbursement of other direct costs. The memorandum of
decision for this contract states that the contractor will not provide a discount
on commissions it earns from the media for advertisements placed on the
Corporation's behalf. In addition, Section B.2. of the contract provides a 15-
percent markup for ad placements when the media does not pay a
commission.

In its proposal, the contractor stated that, in return, it provides certain
services (such as advertising development, media planning, copywriting, and
proofreading) at no charge. The contract solicitation, however, stated that
the Corporation would provide the contractor with camera-ready display
and/or classified advertisements, so the Corporation would not require many
of these additional services.

FAR 31.201-5, Credits, states: "The applicable portion of any income, rebate,
allowance, or other credit relating to any allowable cost and received by or
accruing to the contractor shall be credited to the Government either as a cost
reduction or by cash refund."

FAR 16.102 {c) states: "The cost-plus-a-percentage-of-cost system of
contracting shall not be used."

Allowing the contractor to retain advertising discounts substantially increases
the cost of this advertising to the Corporation. For example, we noted that
the contractor billed advertising placement costs of $45,256 for the month of
December 1999 alone. At 15 percent, the contractor would have received a
$6,788 discount on this advertising that it did not pass along to the
Corporation.
Recommendation      We understand from the Director of Procurement that this contract already
                    includes all labor categories necessary to reimburse the contractor for all
                    services related to advertising placement. We recommend that the
                    Corporation amend Contract No. 99-743-4002 to:

                        Delete the provision for a 15-percent markup on advertising placement
                        costs.

                        Reimburse the contractor for advertising at its net costs.

                        Recover all advertising payments in excess of the contractor's net costs.

                    Corporation Management's Comments

                    This contract will be reviewed to ensure that the OIG's concerns are
                    addressed. We will make certain that there is a clear understanding of the
                    rate structure of this contract, that the proposed rates are consistent with the
                    contract rates, and that the contractor is paid for its actual costs for
                    advertisements plus an administrative handling fee. We will advise the
                    contractor of the requirements of FAR 32.201-5, and $a refund is due,
                    will take all necessary steps to collect it.

The Corporation     OIG Report No. 98-24 identified several instances in which purchase orders
Continues to Make   or contracts were issued after vendors had provided the goods or services.
Unauthorized        We noted three related findings during the current audit:
Commitments.
                    Finding 1

                    Of the 33 purchase orders that we tested, 3 (approximately 10 percent) were
                    for annual requirements issued after the vendor had started providing
                    services:

                        Purchase Order No. 200001050001 was issued on November 24, 1999,
                        for Fiscal Year 2000 (beginning October 1, 1999) utility services.

                        Purchase Order No. 199912100002 was issued on December 13, 1999,
                        for equipment leases beginning October 1, 1999.

                        Purchase Order No. 199911230003 was issued November 23, 1999, for
                        leases beginning October 1, 1999.

                    The Director, OPS, stated that these purchase requisitions were delayed
                    because the Corporation's funding for the year had not yet been authorized
                    and allotted. To the extent that supplies and services were provided before a
                    valid purchase order was issued, these represent unauthorized commitments.
                 FAR 1.602-3(b)(1) states that: "Agencies should take positive action to
                 preclude, to the maximum extent possible, the need for ratification actions.
                 Although procedures are provided in this section for use in those cases where
                 the ratification of an unauthorized commitment is necessary, these
                 procedures may not be used in a manner that encourages such commitments
                 being made by Government personnel."

                 Unauthorized commitments expose the government to liabilities arising from
                 disputes, and unauthorized commitments may violate the Anti-Deficiency
                 Act.

Recommendation   When fiscal year funding is delayed, and the Corporation is operating under
                 continuing resolutions, we recommend that it issue incremental purchase
                 orders for required supplies and services based on funding to date.

                 Corporation Management's Comments

                 We agree that there is a minor issue here, which is common to most, ifnot
                 all, Federal agencies. Congress rarely passes the budget in a timely manner
                 and the agencies are forced to operate under one or more continuing
                 resolution.

                 The orders cited in all threefindings are for continuation of essential
                 services. The FAR in subpart 32.703-2 recognizes this situation andpermits
                 award of contracts properly chargeable to funds of the new fiscal year before
                 these funds are available as long as the awards are for:

                 "operation and maintenance and continuing services (e.g., rentals, utilities,
                 and supply items notjinanced by stock fund+

                    (I) Necessary for normal operations and

                   (2) For which Congress previously had consistently appropriated
                       funds .... "

                  The Corporation will make every effort to ensure timely award of these
                  renewal orders. While the Corporation agrees that it is an undesirable
                  business practice to fail to renew these orders promptly, it disagrees that
                 failure to renew them in a timely manner in all instances constitutes an
                  unauthorized commitment. Each individual situation requires analysis of the
                 facts and circumstances.

                 FAR 1.602-3 defines an "unauthorized commitment" as an agreement that is
                 not binding solely because the Government representative who made it
                 lacked the authority to enter into that agreement on behalfof the
                 Government. In the Corporation's opinion, failure of the program office to
                 submit the requirement before the expiration of the existing order might be
                 strictly interpreted as an unauthorized commitment; however, most agencies
                 interpret this situation as an administrative oversight, particularly in light of
 the impact of the budget process in this type of occurrence. Traditionally an
 unauthorized commitment is considered to require a willful action such as
 when a program oficial, lacking authority, calls up a firm to fix a piece of
 office equipment without benefit of an order being in existence. Delays in the
procurement ofice in executing these orders certainly does not fit the criteria
for an unauthorized commitment since the Contracting Officer does have the
 authority to enter into an agreement on behalf of the government.

Many contractors who consider themselves partners with the Federal
agencies they service willingly perform in advance of an oficial order.
While they know the risk involved, they understand the budget process and
are willing to accept the risk to enszire the agency is promptly serviced.
When an order is issued that covers the appropriate period of time, in
essence the Contracting Officer is authorizingpayment for the period of time
involved prior to execution. While there is no spec@ guidance on this issue,
this opinion is a logical outgrowth of the FAR provisions for adding funds to
a cost reimbursement contract with a Limitation of Funds Clause (FAR 52-
232-22). This clause provides that a contractor is not required to continue to
perform when funds are no longer available; however, ifthe contractor does,
it is at its own risk. Iffunds are later added, any costs the contractor
incurred before the date the costs were increased are "allowable to the same
extent as if incurred afterward."

In thefuture, the OfJice of Procurement Services will request funds
availability requisitions from all programs with annual requirements.
Future orders will be issued "subject to the availability offunds. " The
Office of Procurement Services will issue either incremental Purchase
Orders for required supplies and sewices or fund the entire requirement
based on funding to date.

Finding 2

In addition, two of the ten contracts that we tested (20 percent) were facilities
support contracts awarded after the contractor had begun providing these
services, as follows:

    Contract No. 200003060001 provides the AmeriCorps National Civilian
    Community Corps (NCCC) Southeast Campus with facilities support
    services. This contract was awarded on March 3 1, 2000. The contractor,
    however, began providing services under this contract on March 1,2000.
    This was a sole-source small-business 8(a) award. Although the Small
    Business Administration accepted this contract in February 1999, it was
    delayed, because the contracting officer did not ask for a contractor
    proposal until August 16, 1999. The contracting officer abruptly retired
    in September 1999, and another had to finish the procurement.
    Procurement representatives could not explain the 6-month delay in
    requesting the contractor's proposal.

    Contract No. 99-743-4005 provides facilities and maintenance for the
    NCCC Central Region Campus. This contract was awarded on June 16,
    1999; the base period, however, began January 1, 1999. This was a sole-
                     source award based on no responses to a Commerce Business Daily
                     (CBD) notice published in May 1997 and a market survey that failed to
                     identify any other sources capable of satisfying the Corporation's
                     requirement. On November 17, 1998, the contractor was asked to submit
                     a proposal for the period January 1, 1999, through September 30,200 1.
                     The contract file contains no information on actions the Corporation may
                     have undertaken between May 1997 and November 1998. In addition,
                     Amendment No. 1 to this contract, which exercises the first option period
                     (beginning October 1, 1999), was not executed until December 3, 1999.

                 FAR 7.104(a) states that "Acquisition planning should begin as soon as the
                 agency need is identified."

Recommendation   We recommend that the Corporation develop procedures to assure that
                 contract awards and modifications are made in a timely manner, including
                 monitoring contracting personnel progress on a regular basis, as a means of
                 assuring timely contract awards and modifications.

                 Corporation Management's Comments

                  The Corporation has adequate procedures to make contract awards and
                  modzjkations in a timely manner. It appears that onejkding was reported
                  because of a lack of auditor understanding of the issue ofpre-contract costs.
                  The FAR has provisions designed to provide Contracting Officers with the
                 flexibility and leeway to obtain needed supplies and sewices to meet critical
                  delivery requirements. FAR 31.205-32 addresses the allowability of
                 precontract costs, which are costs "incurred before the effective date of the
                  contract directly pursuant to the negotiation and in anticipation of the
                  contract award when such incurrence is necessary to comply with the
                 proposed contract delivery schedule. "

                 Further, as discussed above, the Corporation has several procedures in
                 place to monitor procurement operations and personnel. In addition to those
                 procedures, the CFO meets with the Director ofProcurement Services on a
                 weekly basis to discuss the status ofprocurement operations as part of
                 monitoring all Corporationfinancial activity. These meetings are used in
                 part to determine the status of contracting issues and to monitor procurement
                 operations. Most delays result from actions that go beyondjust the
                 procurement ofice. By bringing together all senior CFO stafl resolution of
                 problems is quicker and more efJicient.

                 Auditor's Additional Comments

                 Our finding does not question the "allowability" of the costs incurred by the
                 contractor prior to actual contract award, but rather the potential liability that
                 the Corporation might have if there are disputes regarding services provided
                 prior to the execution of a valid contract and the possibility of Anti-
                 Deficiency Act violations. We fully understand FAR Part 3 1 and its
                 applicability to contract pricing and negotiation, but it is not relevant here.
                         The pre-contract costs might be allowable, but this does not mean that the
                         late award of a Federal contract is a prudent business practice.

                         We believe that the Corporation should determine the cause of the delays in
                         the above-described contract awards and assess whether its current
                         procedures are adequate to prevent such occurrences in the future.

                         Finding 3

                         We noted that one purchase order for recruitment advertising was issued after
                         the first advertisements had been placed. The purchase order for these
                         services was issued on September 29, 1999. The first invoice for these
                         services, however, covered two full-page advertisements in the vendor's
                         September issues.

                         FAR 1.602-3(b)(1) states that: "Agencies should take positive action to
                         preclude, to the maximum extent possible, the need for ratification actions.
                         Although procedures are provided in this section for use in those cases where
                         the ratification of an unauthorized commitment is necessary, these
                         procedures may not be used in a manner that encourages such commitments
                         being made by Government personnel."

Recommendation           We recommend that the Corporation reemphasize to program offices the
                         necessity for advance procurement planning, and remind all employees that
                         only warranted contracting officers have the authority to commit the
                         expenditure of Corporation funds.

                         Corporation Management's Comments

                         The Office of Procurement Sewices has reemphasized to program ofices the
                         necessity for advance procurement planning and that only warranted
                         Contracting OfJicers and purchase cardholders with designated authority
                         have the authority to commit the expenditure of Corporation funds.

Noncompliance with the   OIG Audit Report No. 98-24 found that the Corporation issued a $25,000
Federal Acquisition      purchase order to a large business on a sole-source basis without determining
Streamlining Act         that no acceptable small business sources were available. Of the 33 purchase
Continues.               orders we tested during the current audit, four (12 percent) under $100,000
                         were awarded to firms not classified as small businesses, without
                         documented justification. This occurred on the following purchase orders:

                             No. 1999100100 18 for training services.
                             No. 199910190002 for hotel lodging.
                             No. 200002160007 for hotel lodging.
                             No. 200003240001 for hotel lodging.

                         In each of these cases, the contract specialist erroneously identified the
                         vendor as a small business and did not complete the Justification for Other
                         than Small Business section of the purchase order worksheet (Corporation
                 Form 9). Information in the procurement file in each case indicated that the
                 businesses were not small businesses.

                 FAR 19.502-2, Total Set-Asides, states that: "(a) Each acquisition of supplies
                 or services that has an anticipated dollar value exceeding $2,500, but not
                 over $100,000, is automatically reserved exclusively for small business
                 concerns, unless the contracting officer determines there is not a reasonable
                 expectation of obtaining offers from two or more responsible small business
                 concerns that are competitive in terms of market prices, quality, and delivery.
                 If the contracting officer does not proceed with the small business set-aside
                 and purchases on an unrestricted basis, the contracting officer shall include in
                 the contract file the basis for this unrestricted purchase."

                 Information provided by the Director, OPS, indicates that in each of the
                 identified cases, small businesses were not available to provide the required
                 services. The Corporation is not, however, documenting its compliance with
                 the FAR concerning small business set-asides. Contracts may erroneously be
                 awarded to large businesses when small businesses are available to provide
                 the required supplies or services.

Recommendation   We recommend that the Corporation implement policies requiring that the
                 basis for determining each vendor's business classification be documented in
                 the procurement files. We further recommend that the Director, OPS, review
                 this determination and verify, if necessary, that the Justification for Other
                 than Small Business is adequately documented before approving the
                 Corporation Form 9.

                 Corporation Management's Comments

                  We disagree with the recotnmendation to document the file with the basis for
                  determining each vendor's business classzjkation. FAR 19.3 states that a
                 firm is responsible for certzfiing that it is a small business under the
                  appropriate criteria and that the Contracting Officer shall accept that
                  representation unless another offeror challenges it or the Contracting Officer
                  has a reason to question the certzfication. Therefore, in written or oral
                  quotations/solicitations, contracting and purchasing of$cials will follow the
                  FAR procedures and rely on the self-certzfication of businesses.

                 While the Corporation attempts to award to a small business whenever
                 possible for orders under the Simplzfied Acquisition Threshold, there are
                 circumstances when award to them is notpossible. To ensure that eachfile
                 properly documents the basis for award to other than small businesses, the
                 Corporation Form 9 will be amended to provide theformat for docurnenting
                 the reason(s) why an award was not made to a srnall business.

                 Auditor's Additional Comments

                 The Corporation's intended action is not adequate to resolve the above
                 finding. Even with the proposed changes to the Corporation Form 9, the files
                 in the instances noted would not have documented the reasons why an award
                 was not made to a small business, because the contract specialist was
                 operating under the assumption that the vendor was a small business.
                                      14
                            Requiring that the contract specialist document the basis for his or her size
                            determination will reduce the possibility that this might recur. If the basis for
                            the determination is the vendor's self-certification, then that should be
                            documented in the files.

The Corporation             OIG Report No. 98-24 noted numerous instances in which the evaluation of
Continues to Inadequately   bids and proposals was inadequate, erroneous, or not adequately
Evaluate Bids and           documented. We reviewed 10 contract files during the current audit and
Proposals.                  identified calculation errors in the analysis of cost proposals for the following
                            two hotel contracts:

                                One of the Corporation's service centers evaluated proposals for
                                Contract No. 199912210001. In analyzing each vendor's proposal, the
                                service center erroneously calculated the gratuity by applying a
                                percentage to total proposed costs, rather than correctly to only meal
                                costs. The resultant ceiling on this contract was approximately $12,000
                                higher than it should have been, because the negotiated contract price
                                included gratuity on total costs.

                                In analyzing the two responsive proposals for Contract No.
                                200003 100001, the contracting officer made a number of mathematical
                                errors in calculating total costs for the hotel that did not win the contract.
                                (We were able to satisfy ourselves, however, that the contract was
                                properly awarded to the lowest bidder.)

                            FAR 15.404-l(a)(l) requires that the contracting officer evaluate the
                            reasonableness of offered prices. Corporation Procurement Directive No.
                            007 requires that award files be complete, accurate, neat, and consistent.
                            Errors in price and cost analyses could result in improper contract awards.

Recommendation              We recommend that the Corporation implement quality control procedures
                            requiring that each preaward price or cost analysis be reviewed and the
                            mathematical accuracy verified before contract award.

                            Corporation Management's Comments

                            The Corporation has implemented adequate controls over the award process.
                            In the example cited, human error was the cause and it is itnpractical to
                            expect that errors will not occasionally occur. However, contracting
                            personnel will be cautioned to pay particular attention to the award analysis
                            documentation, with an emphasis on verifying the mathematical accuracy of
                            the data.

                            We note that while errors were made, the auditors found that the errors did
                            not result in the selection of a higher priced vendor.

                            Auditor's Additional Comments

                            While it is true that the mathematical errors noted did not result in award of
                            the contracts to a higher-priced vendor, this easily could have happened,
                        because there were no controls to prevent it. It is certainly impractical to
                        expect that errors will not occasionally occur, but controls can be
                        incorporated to reduce the possibility of these occurrences and assure that
                        they are detected and corrected when they do occur. At a minimum, the
                        Corporation's preaward procedures should include a second-party review and
                        verification of each price or cost analysis.


The Corporation         OIG Report No. 98-24 identified a number of instances in which responsible
Continues to Perform    parties had not verified the mathematical accuracy of invoices or that
Inadequate Reviews of   invoices were in agreement with contract terms. We noted several similar
Contractor Payments.    instances in our current audit testing, as follows:

                            On Contract No. 99-743-4006, the Corporation approved the first
                            voucher without exception. The attached documentation for this
                            voucher, however, supported $1,125.6 1 more than the contractor
                            claimed. The invoice evidenced no tickmarks to indicate that amounts
                            charged agreed with supporting detail.

                            Purchase Order No. 199910130003 for hotel lodging specified room
                            rates of $150 per night. The October 22, 1999, invoice for these
                            services, however, included charges of $85 per night and $170 per night
                            for several guests. The invoice was approved for payment, and no
                            indication is evident that the different rates were noted and investigated.

                            Purchase Order No. 199910010023 for occupational accident insurance
                            for AmeriCorps leaders specified a September 29, 1999, to September
                            28, 2000 performance period. The October 13, 1999, invoice, however,
                            specifies an August 23, 1999, to August 23,2000 policy period (although
                            elsewhere on the invoice it includes the purchase order period of
                            performance dates). The invoice was approved for payment, and no
                            indication is evident that the contradictory policy period terms were
                            noted and investigated.

                        Procurement Directive No. 005 states that the purchasing agent or contract
                        specialist will review invoices to ensure, among other things, that the: "costs
                        to be reimbursed are allowable and allocable to the contract.. ..[and] [alny
                        deduction or other necessary corrections to the invoice are identified and
                        withheld from payment." Proper review of vouchers and supporting
                        documentation is necessary to ensure that over- and under-payments do not
                        occur, and that supplies and services received are in accordance with contract
                        terms.

Recommendation:         We recommend that the Corporation add additional details and examples to
                        Procurement Directive No. 005 to instruct purchasing agents and contract
                        specialists on the level of detail that their review should entail.

                        Corporation Management's Comments

                        We believe that the detail of Procurement Directive No. 005 is adequate. To
                        help ensure that the problems identzjied in the audit are eliminated in the
                         future, the OfJice of Procurement Sewices will provide additional training to
                          COTRs and other Corporationpersonnel involved in reviewing and
                          approving invoicesfor payment. The training will include samples and case
                          studies to inform attendees of the requirements for invoice review and to
                          reinforce existing knowledge.

The Corporation          OIG Report No. 98-24 identified numerous instances of PPA noncompliance.
Continues to be in       During the current audit, we noted the following, all of which are similar to
Noncompliance with the   the prior audit's findings:
Prompt Payment Act.
                             We tested a sample of 25 purchase-order payments; 5 of these (20
                             percent) were not paid in time to avoid a PPA interest penalty. In
                             addition, the Corporation underpaid the interest due on these late
                             payments, because it had not updated the Treasury Renegotiation rates in
                             Momentum. It continued to use the 5-percent rate in effect from January
                             to June 1999 until sometime in the third quarter of Fiscal Year 2000.
                             The actual Treasury Renegotiation rates were 6.5 percent from July to
                             December 1999 and 6.75 percent from January to June 2000.

                             Several invoices on contracts we reviewed were paid late and incurred
                             interest penalties totaling $987.10, as follows:

                           Contract No.        Invoice Date          Date Paid         Interest Penalty
                            99-743-4005           12/23/99            03/22/00             $785.71




                         In addition, in 8 of the 25 purchase order payments tested (32 percent), the
                         invoice was stamped "received" more than 15 days after the invoice date.

                         FAR 32.907 requires that interest on late payments be paid automatically at
                         the Renegotiation Board Interest Rate in effect on the payment due date.
                         FAR 32.905 states that the due date for making an invoice payment is: "The
                         30"' day after the designated billing office has received a proper invoice from
                         the contractor; or the 30"' day after Government acceptance of supplies
                         delivered or services performed by the contractor, whichever is later."

                         The Corporation is incurring unnecessary interest expense. In addition, the
                         Corporation underpaid PPA interest due to vendors. An Accounting
                         representative estimated that PPA interest paid under Momentum is
                         approximately $1 1,000. If so, the Corporation underpaid at least $3,300
                         interest during the period in which it had not updated the Treasury
                         Renegotiation rates.

                         Although contractors for the tested invoices did not demand payment of the
                         penalty, FAR 32.907-1(g) provides that an additional 100-percent penalty is
                         to be paid if a contractor is owed an interest penalty of $1 or more and is not
                         paid this penalty within 10 days after the date the invoice amount is paid.
                                               17
                  The Corporation has issued a detailed policy on invoice approval procedures
                  in Policy No. 350. It still requires, however, that all invoices be sent initially
                  to OPS. OPS then forwards the invoice to the program office for
                  certification. A time period for that party's certification and return of the
                  invoice to OPS is not stipulated. If the program office has not already
                  completed a receiving report in Momentum, OPS does not enter the invoice
                  as a payment voucher until this has been done and the invoice certified.

                  The prior audit recommended that the Corporation require that invoices be
                  sent simultaneously to both OPS and the program offices where the goods or
                  services were received. The program office would then be given a specified
                  number of days in which to acknowledge receipt of the goods or services,
                  verify the accuracy of invoices, approve invoices for payment, and forward
                  these to OPS. This procedure would eliminate the additional time required
                  for OPS to forward the invoice to the program office for certification.

Recommendation:   We recommend that the Corporation review its current procedures for
                  processing vendor payments and identify ways in which this can be
                  expedited. We further recommend that the Corporation ensure that the
                  Treasury Renegotiation rates are updated in Momentum on a regular basis.

                  Corporation Management's Comments

                  The Corporation continuously reviews its operations to identzJj, areas where
                  it can improve. The Corporation will continue to strive to reduce late
                  payments; however total elimination is not a realistic goal. Wefeel it is
                  important to note that some of the criticism of ourprocess ignores normal
                  business practices and does not appear to consider FAR provisions.

                   For example, it is not unusual for contractors to date invoices days or weeks
                   before they are mailed or before the products or services are delivered In
                  fact, some contractor's accounting systems will generate an invoice at the
                   same time the order is initially entered. Therefore, it is not afinding that an
                   invoice might be dated as being "received"fifteen or more days after the
                   invoice date. However, it is important to make sure that the invoices are
                   dated at the time of actual receipt and the Corporation has a procedure in
                  place to ensure this.

                  It is important to note the FAR provisions for when an invoice payment is
                  due. FAR 32.903 states that payment will be based on receipt of a proper
                  invoice as defined in the various prompt payment clauses (FAR 52-232-25,
                  26, and 27). Once aproper invoice is received, the due date is determined
                  by the later of the date of the invoice or the date services were performed or
                  supplies delivered.

                  The auditor's suggestion that invoices be sent to both the OPS and the
                  program ofices simultaneously imposes an administrative burden on our
                  contractors. We believe that the process can work effectively as currently
                  structured.

                  As staff become more proficient in the use of the Momentum financial
                  management system we believe that delays in payments caused by the
                                     18
                          Corporation will decrease. However, we point out that in the Corporation's
                          old accounting system (Federal Success), there was a process controlled by
                          the Ofice of Information Technology (OIT) which updated the Treasury
                          interest rates. When Momentum was implemented, the adjustment process
                          was no longer controlled by OIT and was overlooked. Steps have been taken
                          to assure that the Momentum Systems Administrator team updates the rates
                          in Momentum as required.

                          Auditor's Additional Comments

                          Of the purchase order payments we tested, 20 percent included PPA interest
                          penalties. In addition, 32 percent had vendor invoices that were stamped
                          "received" more than 15 days after the invoice date. These percentages
                          appear high, and we believe these are an indication that the process is not
                          working effectively as currently structured. We understand that the prompt
                          payment due date is based on receipt of a proper invoice. In none of the
                          instances noted above was payment late or delayed, because invoices were
                          deemed improper.


The Corporation           The prior audit found problems with missing documentation, prohibited
Continues to Make         purchases, and missing cardholder or approval signatures. We noted similar
Unallowable and           instances during the current audit as follows:
Unsupported Credit Card
Purchases.                    Supporting documentation was missing on some transactions on 6 of the
                              42 cardholder statements tested. Transactions lacking documentation
                              totaled $9,394.60, or about 9 percent of the amount tested.

                              Cardholder or approval signatures were missing on 9 of the 42
                              statements tested (2 1 percent).

                              Five transactions totaling $149.65 were for internet connections. The
                              Corporation's small-purchase-card regulations stipulate that
                              telecommunications services cannot be purchased using the credit cards.

                              One cardholder charged three transactions exceeding the Corporation's
                              $2,500 small-purchase-card ceiling.

                          Corporation Policy No. 350 sets forth the procedures for use and control of
                          the Governmentwide Commercial Credit Card. Among the requirements are
                          the following:

                              Cardholders are responsible for maintaining documentation related to all
                              credit card purchases.

                              When the statement of account is reconciled, the cardholder is to forward
                              it to the Approving Official, along with copies of charge or cash register
                              receipts.
                     The cardholder must know what types of purchases are prohibited under
                     the purchase card program.

                 The Corporation considers the Internet connection fees to be subscription
                 charges. Policy No. 350, however, defines telecommunications services as
                 "the transmission, emission, or reception of signals, signs, writing, images,
                 sounds, or intelligence of any nature by wire, cable, satellite, fiber optics,
                 laser, radio, or any other electronic, electric, electromagnetic, or acoustically
                 coupled means."

                 The cardholder whose purchases exceeded the Corporation's small-purchase-
                 card ceiling is a contracting officer. She has a delegation of authority, signed
                 by the Director of Procurement, that permits her to purchase supplies and
                 services not to exceed $100,000 with her credit card. Policy No. 350,
                 however, only allows cardholders to make micro-purchases (purchases up to
                 $2,500) with the credit card. We identified three charges over this ceiling,
                 totaling $57,390.

                 We examined three cardholder file reviews performed by OPS in February
                 and March 2000. OPS performs these reviews on a random basis. We noted
                 that these were thorough and well documented. Each identified findings
                 necessitating additional cardholder training.

Recommendation   We recommend that the Corporation take steps to ensure that existing control
                 policies and procedures are strictly enforced. We recommend that all
                 exceptions to policies be documented in writing, with appropriate approvals.

                 Corporation Management's Comments

                 The OfJice of Procurement Services continues to emphasize the need to
                 provide adequate documentation in support ofpurchase card acquisitions.
                 Because the OfJice does not review each cardholder's purchases, we have
                 elected to review cardholders' activity on a random basis or where there are
                 indications of inappropriate use. Where serious deficiencies are noted,
                 appropriate action has been taken. The OfJice of Procurement Services will
                 review theJiles of the cardholders noted in this finding to ascertain whether
                 they have any of the reportedly missing documentation.

                 While all new purchase cardholders are given training, a refresher course
                 will be developed to address many of the concerns raised in the audit.
                 Everyone who has a purchase card will be required to attend. In addition,
                 the OfJice of Procurement Services has instructed all Corporation
                 cardholders to add a line to their monthly statement for either their signature
                 or the Approving OfJicial's signature. All cardholders will also be informed
                 that the use of their card for "telecommunication" charges will result in the
                 immediate cancellation of the card. The Director of Procurement Services
                 will also document exceptions, such as those cardholders authorized to use
                 the card to purchase goods or services in excess of $2,500.
The Corporation                During our review, we noted the following two findings related to
Continues to Have              inconsistent or inadequate contract terms:
Instances of Inconsistent or
Inadequate Contract            Finding 1
Terms.
                               OIG Audit Report No. 98-24 identified a contract with conflicting terms. We
                               did not note instances of this during the current audit, but did note that work
                               orders were issued under two contracts for amounts that exceeded ceilings
                               established by the contracts, as follows:

                                   Contract No. 200001 120001 specified that other direct costs were not to
                                   exceed $250 per work order. The January 10,2000, work order,
                                   however. was issued with an allowance for miscellaneous costs of $500.

                                   We noted that two work orders exceeded contract-specified prices:

                               Work Order                         Contract       Work Order
                                  No.           Event Dates        Ceiling        Amount           Difference
                                     1           11102-04199       $22,798           $23,033         $ 235
                                     3           0 1131-02102      $25,335           $27,668          $2,333

                               FAR 16.505(2) states that: "Orders must be within the scope, period, and
                               maximum value of the contract."

                               Failure to ensure that the cost of work ordered is consistent with contract
                               terms can result in Anti-Deficiency Act violations.

Recommendation                 We recommend that the Corporation further strengthen its efforts to assure
                               that contracts include all intended terms and conditions.

                               Corporation Management's Comments

                               While the Corporation agrees with thefinding of inconsistencies in the
                               orders cited, it disagrees that these errors resulted in the contract inaxiinuln
                               value being exceeded and the potential for un Anti-Deficiency Act violation.
                               However, work orders should conform to the terms of the contract and the
                               Corporation will strengthen its efforts to assure that contracts and work
                               orders are consistent.

                               The Corporation will also ensure that orders that include an estimated total
                               that is based on various quoted rates will include those rates on the order to
                               ensure full agreement of the parties and accuracy of billing.

                               Finding 2

                               We also noted two contracts for hotel services that did not include all
                               relevant terms and conditions. In both cases, the winning proposals did not
                               mention or include gratuities in the prices proposed for meals. The resulting
                               contracts did not incorporate the contractor's proposed rates, but set forth a
                               not-to-exceed amount for each event based on the contractors' total proposed
                               cost for each event. An 18-percent gratuity was applied to meal costs on the
                                                    21
                          vendors' invoices. For Contract No. 199910280001, this resulted in a much
                          higher charge per meal than that proposed. The proposal for this contract
                          specified a per-person meal rate of $102 for each of the three events included
                          in our review; the hotel charged $103.90 per meal plus an additional 18
                          percent for gratuities.

                          The Corporation's Procurement Directive No. 006 states that: "All award
                          documents must accurately and completely reflect all terms and conditions
                          agreed to between the contractor and the government."

                          Incomplete contract terms potentially can lead to misunderstandings between
                          the Government and the contractor as well as to disputes about claims both
                          by and against the Government. In addition, failure to incorporate all cost
                          elements in the bid evaluation and subsequent contract award could result in
                          award to other than the lowest bidder and contract cost overruns. Further-
                          more, the addition of a fixed percentage to costs on these invoices is illegal
                          under the FAR, as noted in the finding on pages 6 to 8 of this report.

Recommendation            We recommend that the Corporation ensure that all contracts are clearly
                          stated and include all pertinent terms and conditions. We also recommend
                          that the Corporation recover all costs paid exceeding amounts proposed by
                          hotel contractors.

                          Corporation Management's Comments

                           While the Corporation believes that these contracts and their terms and
                           conditions are clearly stated, we will take steps to ensure that future
                           contracts are as clear as possible and that all relevant terms and conditions
                           are included in the contract or order. On acquisitions similar to those cited
                          for hotel services, the Corporation will include line item pricing in the
                           contract itself as part of the "not-to-exceed " ceiling.

                          From examining the orders in question, the Corporation believes that no
                          costs have been paid exceeding amounts proposed and that no refunds are
                          due.

                          Auditor's Additional Comments

                          The Corporation did not respond to our findings that the 18-percent gratuity
                          was (a) not consistent with the contract terms and (b) illegal; and should be
                          recovered.

The Corporation           The prior audit identified numerous purchase orders awarded on a sole
Continues to Award Sole   source basis without adequate justification. We noted no such instances
Source Purchase Orders    during the current audit, but did find that the Corporation routinely purchases
Without Adequate          from GSA multiple-award-schedule vendors. The purchase order worksheets
Justifications.           for these indicate that only one quotation was obtained and states as
                          justification: "GSA schedule - already competed." In our testing of 33
                 purchase orders, we noted that 9 contained this justification. Of those nine,
                 two were for equal employment opportunity investigation services, and one
                 was for website redesign services.

                 FAR 8.402 states: "Procedures in this subpart apply to Federal Supply
                 Schedule contracts. Occasionally, special ordering procedures may be
                 established. In such cases the procedures will be outlined in the 'Federal
                 Supply Schedules'."

                 GSA Federal Supply Schedules, Ordering Procedures for Services, states:
                 "(a) When ordering services, ordering offices shall- (1) Prepare a request for
                 quotes.. ..(2) Transmit the request for quotes to contractors.. .(3) Evaluate
                 quotes and select the contractor to receive the order."

                 The FAR does not require that the use of GSA Advantage! or vendor price
                 lists be documented in the purchase order file for supplies. Sound business
                 practices dictate that the Corporation demonstrate that it is obtaining the best
                 value in purchasing goods and services. Failure to document this
                 consideration on larger purchases could allow purchasers to steer contracts to
                 favored vendors and could enable purchasers to solicit bribes or kickbacks.

Recommendation   We recommend that the Corporation follow GSA ordering procedures when
                 procuring services on the GSA schedule. We further recommend that the
                 Corporation establish a reasonable threshold over which its determination of
                 best value must be documented when purchasing supplies using GSA
                 multiple award schedules.

                 Corporation Management's Comments

                 The Corporation believes it is following requiredprocedures and that the
                 orders cited are not "sole source" awards. FAR 8.404(a) states:

                          "Orders placed against a Multiple Award Schedule (MAS),
                         using the procedures in this subpart are considered to be
                         issued using full and open competition... "

                 This same FAR reference goes on to say that:

                           "...ordering ofices need not seek further competition,
                          synopsize the requirement, make a separate determination of
                         fair and reasonable pricing, or consider small business
                         programs. GSA has already determined the prices of items
                          under schedule contracts to be fair and reasonable. By
                         placing an order against a schedule using the procedures in
                          this section, the order office has concluded that the order
                         presents the best value and results in the lowest overall cost
                          alternative (considering price, special features,
                          administrative costs, etc.) to meet the Government's needs."
              Nevertheless, the Corporation will take steps to ensure that future GSA
              schedule orders are annotated with the rationale for award on Corporation
              Form 9.

              Auditor's Additional Comments

              The Corporation's response does not address any planned action to ensure
              compliance with GSA ordering procedures when procuring services on the
              GSA schedule. We believe that this point needs to be satisfactorily
              addressed before this issue can be resolved.


MANAGEMENT    As described in the Objectives, Scope, and Methodology section of this
CONTROLS      report, one of the primary objectives of this audit was to determine if the
              Corporation's corrective actions have resulted in improvements to the
              Corporation's procurement operations. To meet this objective, we obtained
              an understanding of the management controls placed in operation, and we
              assessed control risk. Our audit was not designed to uncover fraud, but to
              assess whether the Corporation's controls are adequately designed to prevent
              or detect fraud, waste, and abuse.

              Because of the number and nature of findings discussed in this report that
              relate to breakdowns in established or required procedures, we concluded
              that controls were not adequate to protect assets and prevent or detect fraud,
              waste, and abuse. Based on the fact that additional findings were noted in
              the current audit in 9 of the 19 finding areas from the prior audit, we have
              concluded that the Corporation has not implemented appropriate corrective
              actions, and the Corporation continues to remain vulnerable to fraud, waste,
              and abuse.


CONCLUSIONS   The primary objectives of the audit were to determine if (1) corrective
              actions taken by the Corporation in response to OIG Report No. 98-24 are
              adequately designed and responsive to the deficiencies identified in that
              report and (2) corrective actions have been implemented and have resulted in
              improvements to the Corporation's procurement operations.

              We noted additional findings in 9 of the 19 areas reported as deficient in the
              prior audit. Our findings were generally not of the magnitude found in the
              prior audit. The sample of transactions we tested, however, was relatively
              small, consisting primarily of procurement activity from September 30, 1999
              (the date of issuance of the new procurement policies and procedures) to
              March 3 1,2000.

              We had no findings in the areas of restriction of competition, inadequate and
              inappropriate statements of work, use of personal service contracts, cost and
              pricing data inappropriately obtained, monitoring of indirect cost rates,
              monitoring of cooperative agreements, contract file completeness,
              unreconciled purchase order tracking systems, and control over micro
              purchases of equipment. Based on our testing, we found that the
                    Corporation's corrective actions in these areas were adequately designed and
                    responsive to the deficiencies noted in the prior audit report.

                    Based on the fact that we noted additional findings in the current audit in 9 of
                    the 19 finding areas from the prior audit, we conclude that the Corporation
                    has not implemented sufficient corrective actions, these actions have not
                    resulted in sufficient improvements to the Corporation's procurement
                    operations, and the Corporation continues to remain vulnerable to fraud,
                    waste, and abuse. The Corporation thinks that many of these are minor
                    problems not serious enough to warrant additional actions. According to the
                    Chief Financial Officer, correcting these would only be a matter of achieving
                    a greater level of perfection. We are concerned that these "minor" problems
                    have continued to exist for years, although brought to the attention of
                    Corporation management on several occasions. We also are concerned that
                    the lack of concern about any adverse effects of these conditions indicates
                    that the "tone at the top," which is an essential factor for establishing good
                    internal controls, is counterproductive in signaling that following prudent
                    business practices and doing the best job possible are not important to
                    Corporation management.

                    Office of Management and Budget Circular A-123 defines a material
                    weakness as: "A deficiency that the agency head determines to be significant
                    enough to be reported outside the agency (i.e. included in the annual Integrity
                    Act report to the President and the Congress)."

                    In view of the number and nature of the findings cited in this report and the
                    fact that appropriate and effective corrective actions have not been taken to
                    resolve many of the prior audit findings, it is our opinion that the condition of
                    the Corporation's contracting and procurement operations is a material
                    weakness and should be reported as such to the President and Congress under
                    FMFIA.


CURRENT STATUS OF   The status of OIG Report No. 98-24 findings is summarized in the appendix.
PRIOR AUDIT         This summary shows that 10 of the 19 findings from that report are not yet
FINDINGS            resolved. These ten include a prior audit finding on unit-price purchase
                    orders containing firm fixed-price language. This finding should be resolved
                    when the Corporation implements a new desktop procurement system in late
                    Fiscal Year 2000.
APPENDIX 1
                                                              CORPORATION FOR NATIONAL SERVICE                                               Appendix 1
                                                                PROCUREMENT FOLLOW-UP AUDIT
                                                              STATUS OF REPORT NO. 98-24 FINDINGS

Reported Findings                                             Prior Recommendation                            Status
Time-and-materials contract allowed the contractor to        All fees claimed on ODCs by the contractor       Unresolved. The Corporation is recovering fees, but
apply a percentage fee to other direct costs (ODCs).         are contrary to the FAR and should be            we noted similar findings; see pages 6 to 9.
                                                             recovered by the Corporation.
contract included inconsistent and contradictory terms.      The Corporation should establish a control       Adequately designed but not operating effectively.
                                                             procedure to assure that every contract          We noted similar findings; see pages 21 to 24.
                                                             accurately and completely includes all
                                                             intended contract terms and conditions.
Purchase orders included inconsistent and contradictory      The Corporation should take immediate steps      Improved, but not yet resolved. We noted two unit-
terms.                                                       to require specific prices and payment terms     price purchase orders in our testing with firm-fixed-
                                                             to be clearly stated in every purchase order.    price language. This language is currently "whited
                                                                                                              out" when OPS prepares purchase orders.
                                                                                                              Corporation representatives stated that this will be
                                                                                                              resolved with a new desktop procurement system to
                                                                                                              be implemented in late FY 2000.
Corporation awarded a $25,000 purchase order to a large      The Corporation should take steps to ensure      Unresolved. We noted a similar finding; see pages 13
business on a sole-source basis without determining that     compliance with FAR l3.lO5(a) and FAR
no acceptable small business sources were available.         19.502-2(a) in the future.
Purchase orders awarded on a sole-source basis without       The Corporation should assure that at least      Unresolved. We noted a similar finding; see pages 22
adequate justification.                                      three sources are solicited for all              to 24.
                                                             procurements between $2,500 and $25,000
                                                             and that complete and detailed justifications
                                                             and supporting documentation are prepared
                                                             and filed when the contracting officer
                                                             determines that competition is not possible.

Competition on contracts unnecessarily and                   The Corporation should issue the call for        Resolved. The Corporation is not coordinating the
inappropriately restricted.                                  procurement requirements each year in            forecasting procedure with the budgeting process, but
                                                             conjunction with and as part of each year's      requests acquisition forecasting by August 1 of each
                                                             budget call.
Contract for facilities support services had an inadequate   The Corporation should implement control         Resolved. The Corporation modified the contract to
and inappropriate statement of work.                         procedures to ensure that contract statements    correct inconsistencies in the statement of work.
                                                             of work accurately reflect the work to be done
                                                             under the contracts.
                                                           CORPORATION FOR NATIONAL SERVICE                                                   Appendix 1
                                                              PROCUREMENT FOLLOW-UP AUDIT
                                                            STATUS OF REPORT NO. 98-24 FINDINGS

Evaluation of bids and proposals inadequate, erroneous,   The Corporation should implement                   Unresolved. We noted a similar finding; see pages 15
or not adequately documented.                              strengthened control procedures designed to       and 16.
                                                          provide positive assurance that evaluations of
                                                          bids and proposals are made in full
                                                          accordahce with FAR requirements and that
                                                          all selection decisions are accurately and
                                                          completely documented.
Unauthorized personal services contracts used.            The Corporation should either cease using          Resolved. The Corporation allowed the contracts
                                                          personal services contracts or seek OMB and        cited to expire and has filled the vacated positions
                                                          Conm-essional armoval to use such contracts.       with Comoration emdovees.
Cost and pricing data unnecessarily and inappropriately   The Corporation should cease demanding             Resolved.
obtained.                                                 cost-and-pricing data in instances in which
                                                          adequate price competition exists and in the
                                                          other instances stipulated in FAR 15.804-1(a).
Unauthorized commitments made.                            The Corporation should assure that all current     Adequately designed, but not operating effectively.
                                                          and new employees are made aware of the            We noted similar findings; see pages 9 to 13.
                                                          need for advance procurement planning and
                                                          that all current and that only warranted
                                                          contracting officers have the authority to
                                                          commit the expenditure of Corporation funds.
Unallowable and unsupported credit card purchases         The Corporation should take steps to ensure        Unresolved. We noted similar findings; see pages 19
made.                                                     that existing control policies and procedures      and 20.
                                                          are strictly enforced. The Corporation revised
                                                          the delegation of authority that all cardholders
                                                          are required to sign to stipulate that the
                                                          cardholder will be held personally responsible
                                                          and accountable for transactions that violate
                                                          the Small Purchase Card Guide's policies and
                                                          procedures.
Indirect cost rates on cost-reimbursable contracts not    The Corporation should require all contractors     Resolved. On September 9, 1998, the Corporation
adjusted.                                                 with contracts having a cost-reimbursable          recovered $94,091.20 from the contractor cited in the
                                                          component to submit indirect cost rate             previous report. The contract is being audited by the
                                                          proposals for all completed years and take         OIG.
                                                          steps to recover all over-claimed indirect costs
                                                          and interest.
                                                           CORPORATION FOR NATIONAL SERVICE                                              Appendix 1
                                                              PROCUREMENT FOLLOW-UP AUDIT
                                                            STATUS OF REPORT NO. 98-24 FINDINGS




&
Reviews of contractor payments inadequate.                The Corporation should establish a systematic    Unresolved. We noted a similar finding; see pages 16
                                                          and documented procedure under which every       and 17.
                                                          contractor invoice will be verified for
                                                          accuracy and consistency with contract terms
                                                          and conditions before it can be aid.
Prompt Payment Act noncompliance noted.                   Invoice payment processing procedures            Unresolved. We noted a similar finding; see pages 17
                                                          should be changed. Invoices should be sent       to 19.
                                                          simultaneously to both OPS and the program
                                                          offices (COTRs) where the goods or services
                                                          were received. The receipt dates should be
                                                          stamped on the invoices at that time.
Monitoring and cost control over cooperative agreements   The Corporation should establish and             Resolved.
inadequate.                                               document detailed procedures on monitoring
                                                          cooperative agreements.
Contract file completeness should be improved.            The Corporation should implement stringent       Resolved.
                                                          supervisory review procedures to assure that
                                                          cok-act files are complete, accurate, and
                                                          consistent.
Three separate and nonintegrated tracking systems used    The Corporation should reevaluate the need       Resolved.
for purchase orders.                                      for all three systems; determine if a single
                                                          system can fulfill these needs; and take steps
                                                          to prevent the duplication of information and
                                                          assure that information maintained is current,
                                                          accurate, and complete.

Centralized control over computer and other valuable      The Corporation should establish control         Resolved.
assets lacking.                                           procedures for routinely placing valuable
                                                          assets under centralized recordkeeping
                                                          controls.
APPENDIX 2
                                                           CORPORATION
                                                           FOR NATIONAL




     MEMORANDUM

      DATE:                September 11,2000

      TO:                  Luise Jordan
                           I n s ~ e c t General
                                         ~r                     s



      FROM:
                           Chief ~in&cialOfficer

      SUBJECT:             Draft Audit Report 00-12, Follow-up Audit of the Corporation 's
                           Procurement Operations


              I have reviewed your report on the Office of the Inspector General (OIG) follow-
      up audit of the Corporation's procurement operations. I am pleased to see that OIG has
      concluded that the Corporation's procurement policies and procedures are adequately
      designed and have resulted in improvements to the Corporation's procurement
      operations. The report suggests that improvements in the Corporation's procurement
      operations should have been quicker in coming. I agree. As is the case in many Federal
      agencies, it is not uncommon to take longer than seems necessary to implement change.
      Since I began my tenure at the Corporation I have worked aggressively to accelerate
      improvements in the Corporation's operations and will continue to do so during the
      remainder of my term. To this end, I would hope to be able to work with you and your
      Office more closely in the future, outside of the traditional "auditor-auditee" relationship,
      to facilitate the improvement that we both seek and our customers deserve.

             You should know that there are several conclusions and comments with which I
      strongly disagree.

              First, the report identifies several instances where an error had been made in some
      aspect of the procurement process. While these types of procedural errors are not
      unusual in procurement offices that must deal with over 1,500 pages of guidance in the
      Federal Acquisition Regulation (FAR) alone, they are neither egregious nor indicative of
      fraud, waste, or abuse. They are, simply, mistakes. However, irrespective of the scope of
      the errors, the report concludes that the Corporation's procurement operations as a whole
      constitute a material weakness. This is a leap, in my view, and one that I strongly
      disagree with. None of the errors found, taken alone or in the aggregate, could result in a
      material loss to the Corporation. Further, the auditors found no instances of fraud,
      waste, or abuse. While I most emphatically agree that the errors warrant management's
      attention and corrective action, they simply do not rise to the level of significance that
      they should be considered for reporting outside of the agency. This, in and of itself,
      would be a waste and divert limited resources from the Corporation's mission.
      Considering these facts, I believe this conclusion is unfounded.



NATIONAL SERVICE: G E l l I N G THINGS DONE                           1201 New York Avenue, N.W. Washington, D.C. 20525
AmeriCorps   Learn and Serve America   Nztional Senior SewiceCorps    telephone: 202-606-5000 website: ~ . n a t i ~ n a k e r V i ~ e . ~ r g
                                                                                 APPENDIX 2

        While we will continue to work diligently to improve in those areas, it would
appear to be more profitable to focus not on procedural errors, or process, but results.
Again, it is important to take a balanced approach. It would be wonderful if there was a
failsafe way to ensure that errors or irregularities could not occur. However, as the
Inspector General is aware, internal controls can only provide reasonable assurance that a
particular control objective is achieved. Moreover, when determining what those
controls are to be, the cost of the controls must be weighed against the benefits to be
achieved. It would clearly not be wise to spend large resources to assure error-free
operations if the cost were that the Corporation's work cannot be done. I believe that
with the policies and procedures that the Corporation has implemented, coupled with the
new procurement system that was implemented in Headquarters late this year and will be
implemented in the Service Centers in fiscal 2001, the Corporation has achieved the
proper balance. The nature, number, and timing of the errors identified in the OIG report
bear this conclusion out.

         Second, the report accuses me of being indifferent to the OIG's findings and of
setting the tone that "following prudent business practices and doing the best job possible
are not important to Corporation management." This allegation about my personal
feelings and views is simply not factual and should not be a part of the report. My view
is this: I expect each individual working for the Corporation to do the best job they are
capable of doing without exception. This expectation is different than saying errors are
not allowed. Mistakes are a fact of life. However, the Corporation has put into place
policies and procedures to minimize the effect of those mistakes that are made and
correct errors that are identified. As I read the report and assess the findings cited, I can
only conclude that the Corporation's policies and procedures have been effectively
implemented in all material respects.

        Finally, the report makes several recommendations that, in my view, are too
general to be useful and do not provide adequate guidance to address the findings raised
in the report. Additionally, in some instances the recommendations address areas that
were outside the scope of work performed by the auditors. I believe that it would be
more constructive if the recommendations were directed at resolving the cause of
identified problems, were action-oriented and specific, and were both feasible and cost
effective. In fact, this is the standard that is set forth in GAO's Government Auditing
Standards.

       During the course of the audit, Corporation comments on your preliminary
findings were provided to the auditors with the expectation that there would be a dialog
and discussion of the issues raised. Unfortunately and inexplicably, this did not take
place. Accordingly, please delete the material previously provided and replace it with the
following responses to the findings and recommendations raised in your report.

      It is my hope that together we can find a constructive way to work in closer
harmony for the good of the organization we have both pledged to support.
                                                                                  APPENDIX 2
Appendix 1 - Responses to OIG Findings And Recommendations


OIG Finding 1:
"The Corporation Did Not Take Corrective Actions in a Timely Manner"

OIG Recommendation la:

"We recommend that the Corporation implement monitoring and oversight procedures to
ensure that corrective action is taken in a more timely (sic) manner. "

        While the Corporation will accept valid criticism of the time it took it to initiate
procedures, it does not agree that this delay extended its vulnerability to fraud, waste, and
abuse. The Corporation has implemented monitoring and oversight procedures that now
provide it with adequate assurance that corrective actions are taken in a timely manner.
In addition, the Corporation's senior management is actively and directly involved in
monitoring and overseeing improvements in the Corporation's operations.

        Among the tools utilized by the Corporation to provide reasonable assurance that
corrective actions are implemented is the Action Plan. The Action Plan includes specific
goals, objectives, individual tasks, and milestone dates for completing actions. Goal 9 in
the Action Plan specifically addresses the Corporation's procurement operations. Senior
management regularly reviews the status of actions under the plan and maintains detailed
documentation in support of completed actions. In addition to its use by the Corporation
to monitor corrective actions, the Action Plan is transmitted to the Congress for its use in
overseeing the Corporation's operations.

        Furthermore, the Corporation maintains information on audit recommendations in
an audit resolution database. The database is used to generate reports to management on
the status of corrective actions and milestones for completing various tasks. Management
review of these reports has resulted in the reprioritization of work to focus staff attention
on actions coming due. In fact, reports from the database are periodically provided to
the OIG.

        Finally, to provide an objective review of the issues presented in this audit report,
the Corporation will seek contractor support to provide assistance in reviewing its
contracting operations and correcting the areas determined to be weaknesses or
vulnerabilities. The Corporation has recently contracted with Acquisition Solutions,
Inc., obtaining a subscription service for acquisition support. This service will provide
"on-call" research assistance on a transaction-by-transaction basis. This will enable the
Corporation to seek expert guidance on contracts and purchases orders in advance of the
action in those areas that have proven troublesome in the past.
                                                                                APPENDIX 2
Appendix 1 - Responses to OIG Findings And Recommendations

OIG Finding 2:
"The Corporation Continues to Use an Illegal Contracting Form"
OIG Recommendation 2a:
  "We recommend that the Corporation similarly amend Contract No. 199911220001, and
 that all contract amendments eliminate any reference to the rates as ?xed. ' We also
 recommend that the Corporation develop a written policy prohibiting cost recovery as a
jxedpercentage of direct costs in its contracts. Finally, we recommend that the
 Corporation negotiate fixed amounts on each work order to reimburse hotel contractors
for meal service. "
        The Corporation is not using an illegal contracting form. However, we will
amend Contract No. 199911220001 to eliminate any reference to the rates as fixed. We
believe that there may be a semantics issue involved here. We do not agree that the
orders cited constitute cost-plus-percentage-of-cost contracts. It may be that the
terminology being used gives the appearance of cost-plus-percentage-of-cost language;
however, the intent here is to provide allowable compensation to contractors for the
administrative expense associated with Other Direct Costs. Since the amount of Other
Direct Costs cannot be determined in advance, they must be estimated. The impact of
these cost elements is usually minor as they generally represent a small percentage of the
overall contract value. Handling costs are permitted in accordance with the contractor's
usual accounting procedures (see FAR 16.601(b)). In addition, a profit on material costs
(as long as the costs are not also included as part of the fixed hourly labor rate) is also
permitted (see FAR 16.602(b)(iii)).
        We also do not believe the development of a written policy is necessary. In the
one example cited, human error was the cause. A policy would not ensure an error is
never made again. In the other example, because the number of attendees at an event can
change significantly after contract award, negotiating fixed amounts on each work order
for meals would result in the waste of Corporation funds. Accordingly, the Corporation
will utilize the contract vehicle that will provide the best value to the government as
determined on a case-by-case basis.
OIG Recommendation 2b:
 "We recommend that the Corporation amend Contract No. 99-743-4002 to:

        Delete the provision for a 15-percent markup on advertising placement costs.
        Reimburse the contractor for advertising at its net costs.
        Recover all advertising payments in excess of the contractor's net costs. "
        This contract will be reviewed to ensure that the OIG's concerns are addressed.
We will make certain that there is a clear understanding of the rate structure of this
contract, that the proposed rates are consistent with the contract rates, and that the
contractor is paid for its actual costs for advertisements plus an administrative handling
fee. We will advise the contractor of the requirements of FAR 32.201-5, and if a refund
is due, will take all necessary steps to collect it.
                                                                                 APPENDIX 2
Appendix 1 - Responses to OIG Findings And Recommendations

OIG Finding 3:
"The Corporation Continues to Make Unauthorized Commitments"
OIG Recommendation 3a:

"Whenfiscal year funding is delayed, and the Corporation is operating under continuing
resolutions, we recommend that it issue incremental purchase ordersfor required
supplies and services based on funding to date. "
        We agree that there is a minor issue here, which is common to most, if not all,
Federal agencies. Congress rarely passes the budget in a timely manner and the agencies
are forced to operate under one or more continuing resolutions.

        The orders cited in all three findings are for continuation of essential services. The
FAR in subpart 32.703-2 recognizes this situation and permits award of contracts
properly chargeable to funds of the new fiscal year before these funds are available as
long as the awards are for:

       "operation and maintenance and continuing services (e.g., rentals, utilities,
       and supply items not financed by stock funds)--

               (1) Necessary for normal operations and

               (2) For which Congress previously had consistently appropriated
                   funds. .."

         The Corporation will make every effort to ensure timely award of these renewal
orders. While the Corporation agrees that it is an undesirable business practice to fail to
renew these orders promptly, it disagrees that failure to renew them in a timely manner in
all instances constitutes an unauthorized commitment. Each individual situation requires
analysis of the facts and circumstances.

        FAR 1.602-3 defines an "unauthorized commitment" as an agreement that is not
binding solely because the Government representative who made it lacked the authority
to enter into that agreement on behalfof the Government. In the Corporation's opinion,
failure of the program office to submit the requirement before the expiration of the
existing order might be strictly interpreted as an unauthorized commitment; however,
most agencies interpret this situation as an administrative oversight, particularly in light
of the impact of the budget process in this type of occurrence. Traditionally an
unauthorized commitment is considered to require a willful action such as when a
program official, lacking authority, calls up a firm to fix a piece of office equipment
without benefit of an order being in existence. Delays in the procurement office in
executing these orders certainly does not fit the criteria for an unauthorized commitment
since the Contracting Officer does have the authority to enter into an agreement on behalf
of the government.
                                                                                 APPENDIX 2
Amendix 1 - Res~onsesto OIG Findings And Recommendations


        Many contractors who consider themselves partners with the Federal agencies
they service willingly perform in advance of an official order. While they know the risk
involved, they understand the budget process and are willing to accept the risk to ensure
the agency is promptly serviced. When an order is issued that covers the appropriate
period of time, in essence the Contracting Officer is authorizing payment for the period
of time involved prior to execution. While there is no specific guidance on this issue, this
opinion is a logical outgrowth of the FAR provisions for adding funds to a cost
reimbursement contract with a Limitation of Funds Clause (FAR 52-232-22). This clause
provides that a contractor is not required to continue to perform when funds are no longer
available; however, if the contractor does, it is at its own risk. If funds are later added,
any costs the contractor incurred before the date the costs were increased are "allowable
to the same extent as if incurred afterward."

        In the future, the Office of Procurement Services will request funds availability
requisitions from all programs with annual requirements. Future orders will be issued
"subject to the availability of funds." The Office of Procurement Services will issue
either incremental Purchase Orders for required supplies and services or fund the entire
requirement based on funding to date.

OIG Recommendation 3b:

 "We recommend that the Corporation develop procedures to assure that contract awards
and mod$cations are made in a timely manner, including monitoring contracting
personnel progress on a regular basis, as a means of assuring timely contract awards
and modzjications. "

        The Corporation has adequate procedures to make contract awards and
modifications in a timely manner. It appears that one finding was reported because of a
lack of auditor understanding of the issue of pre-contract costs. The FAR has provisions
designed to provide Contracting Officers with the flexibility and leeway to obtain needed
supplies and services to meet critical delivery requirements. FAR 3 1.205-32 addresses
the allowability of precontract costs, which are costs "incurred before the effective date
of the contract directly pursuant to the negotiation and in anticipation of the contract
award when such incurrence is necessary to comply with the proposed contract delivery
schedule."

       Further, as discussed above, the Corporation has several procedures in place to
monitor procurement operations and personnel. In addition to those procedures, the CFO
meets with the Director of Procurement Services on a weekly basis to discuss the status
of procurement operations as part of monitoring all Corporation financial activity. These
meetings are used in part to determine the status of contracting issues and to monitor
procurement operations. Most delays result from actions that go beyond just the
procurement office. By bringing together all senior CFO staff, resolution of problems is
quicker and more efficient.
                                                                                   APPENDIX 2
Appendix 1 - Responses to OIG Findings And Recommendations

OIG Recommendation 3c:

 "We recommend that the Corporation reemphasize (sic) to program offices the necessity
for advance procurement planning, and remind all employees that only warranted
 contracting oflcers have the authoriy to commit the expenditure of Corporation funds. "

        The Office of Procurement Services has reemphasized to program offices the
necessity for advance procurement planning and that only warranted Contracting Officers
and purchase cardholders with designated authority have the authority to commit the
expenditure of Corporation funds.


OIG Finding 4:

"Noncompliance with the Federal Acquisition Streamlining Act Continues"

OIG Recommendation 4a:

 "We recommend that the Corporation implement policies requiring that the basis for
 determining each vendor's business class~jkationbe documented in the procurement
files. Wefurther recommend that the Director, OPS, review this determination and
 ver~fi,ifnecessary, that the Justzjkation for Other than Small Business is adequately
 documented before approving the Corporation Form 9. "

         We disagree with the recommendation to document the file with the basis for
determining each vendor's business classification. FAR 19.3 states that a firm is
responsible for certifying that it is a small business under the appropriate criteria and that
the Contracting Officer shall accept that representation unless another offeror challenges
it or the Contracting Officer has a reason to question the certification. Therefore, in
written or oral quotations/solicitations, contracting and purchasing officials will follow
the FAR procedures and rely on the self-certification of businesses.

        While the Corporation attempts to award to a small business whenever possible
for orders under the Simplified Acquisition Threshold, there are circumstances when
award to them is not possible. To ensure that each file properly documents the basis for
award to other than small businesses, the Corporation Form 9 will be amended to provide
the format for documenting the reason(s) why an award was not made to a small
business.
                                                                                 APPENDIX 2
Appendix 1 - Responses to OIG Findings And Recommendations


OIG Finding 5:
"The Corporation Continues to Inadequately Evaluate Bids and Proposals"
OIG Recommendation 5a:

" We recommend    that the Corporation implement quality control procedures requiring
that each preawardprice or cost analysis be reviewed and the mathematical accuracy
veriJied before contract award. "

        The Corporation has implemented adequate controls over the award process. In
the example cited, human error was the cause and it is impractical to expect that errors
will not occasionally occur. However, contracting personnel will be cautioned to pay
particular attention to the award analysis documentation, with an emphasis on verifying
the mathematical accuracy of the data.

        We note that while errors were made, the auditors found that the errors did not
result in the selection of a higher priced vendor.


OIG Finding 6:
"The Corporation Continues to Perform Inadequate Reviews of Contractor Payments"
OIG Recommendation 6a:
 "We recommend that the Corporation add additional details and examples to
Procurement Directive No. 005 to instruct purchasing agents and contract specialists on
the level of detail that their review should entail.
                                                  "




        We believe that the detail of Procurement Directive No. 005 is adequate. To help
ensure that the problems identified in the audit are eliminated in the future, the Office of
Procurement Services will provide additional training to COTRs and other Corporation
personnel involved in reviewing and approving invoices for payment. The training will
include samples and case studies to inform attendees of the requirements for invoice
review and to reinforce existing knowledge.
                                                                                APPENDIX 2
Appendix 1 - Responses to OIG Findings And Recommendations

OIG Finding 7:

"The Corporation Continues to be in Noncompliance with the Prompt Payment Act"

OIG Recommendation 7a:
"We recommend that the Corporation review its current procedures for processing
vendor payments and identih ways in which this can be expedited. Wefurther
recommend that the Corporation ensure that the Treasury Renegotiation rates are
updated in Momentum on a regular basis. "

        The Corporation continuously reviews its operations to identify areas where it can
improve. The Corporation will continue to strive to reduce late payments; however total
elimination is not a realistic goal. We feel it is important to note that some of the
criticism of our process ignores normal business practices and does not appear to
consider FAR provisions.

         For example, it is not unusual for contractors to date invoices days or weeks
before they are mailed or before the products or services are delivered. In fact, some
contractor's accounting systems will generate an invoice at the same time the order is
initially entered. Therefore, it is not a finding that an invoice might be dated as being
"received" fifteen or more days after the invoice date. However, it is important to make
sure that the invoices are dated at the time of actual receipt and the Corporation has a
procedure in place to ensure this.

        It is important to note the FAR provisions for when an invoice payment is due.
FAR 32.903 states that payment will be based on receipt of aproper invoice as defined in
the various prompt payment clauses (FAR 52-232-25,26, and 27). Once a proper invoice
is received, the due date is determined by the later of the date of the invoice or the date
services were performed or supplies delivered.

        The auditor's suggestion that invoices be sent to both the OPS and the program
offices simultaneously imposes an administrative burden on our contractors. We believe
that the process can work effectively as currently structured.

       As staff become more proficient in the use of the Momentum financial
management system we believe that delays in payments caused by the Corporation will
decrease. However, we point out that in the Corporation's old accounting system
(Federal Success), there was a process controlled by the Office of Information
Technology (OIT) which updated the Treasury interest rates. When Momentum was
implemented, the adjustment process was no longer controlled by 01T and was
overlooked. Steps have been taken to assure that the Momentum Systems Administrator
team updates the rates in Momentum as required.
                                                                                APPENDIX 2
Appendix 1 - Responses to OIG Findings And Recommendations


OIG Finding 8:
"Unallowable and Unsupported Credit Card Purchases"

OIG Recommendation 8a:

"We recommend that the Corporation take steps to ensure that existing control policies
and procedures are strictly enforced. We recommend that all exceptions to policies be
documented in writing, with appropriate approvals. "

        The Office of Procurement Services continues to emphasize the need to provide
adequate documentation in support of purchase card acquisitions. Because the Office
does not review each cardholder's purchases, we have elected to review cardholders'
activity on a random basis or where there are indications of inappropriate use. Where
serious deficiencies are noted, appropriate action has been taken. The Office of
Procurement Services will review the files of the cardholders noted in this finding to
ascertain whether they have any of the reportedly missing documentation.

        While all new purchase cardholders are given training, a refresher course will be
developed to address many of the concerns raised in the audit. Everyone who has a
purchase card will be required to attend. In addition, the Office of Procurement Services
has instructed all Corporation cardholders to add a line to their monthly statement for
either their signature or the Approving Official's signature. All cardholders will also be
informed that the use of their card for "telecommunications" charges will result in the
immediate cancellation of the card. The Director of Procurement Services will also
document exceptions, such as those cardholders authorized to use the card to purchase
goods or services in excess of $2,500.

OIG Finding 9:

"The Corporation Continues to Have Instances of Inconsistent or Inadequate Contract
Terms "

OIG Recommendation 9a:
"We recommend that the Corporation further strengthen its efforts to assure that
contracts include all intended terms and conditions. "




         While the Corporation agrees with the finding of inconsistencies in the orders
cited, it disagrees that these errors resulted in the contract maximum value being
exceeded and the potential for an Anti-Deficiency Act violation. However, work orders
should conform to the terms of the contract and the Corporation will strengthen its efforts
to assure that contracts and work orders are consistent.

       The Corporation will also ensure that orders that include an estimated total that is
based on various quoted rates will include those rates on the order to ensure full
agreement of the parties and accuracy of billing.
                                                                                    APPENDIX 2
Appendix 1 - Responses to OIG Findings And Recommendations

OIG Recommendation 9b:
"We recommend that the Corporation ensure that all contracts are clearly stated and
include all pertinent terms and conditions. We also recommend that the Corporation
recover all costs paid exceeding amounts proposed by hotel contractors. "

        While the Corporation believes that these contracts and their terms and conditions
are clearly stated, we will take steps to ensure that future contracts are as clear as possible
and that all relevant terms and conditions are included in the contract or order. On
acquisitions similar to those cited for hotel services, the Corporation will include line
item pricing in the contract itself as part of the "not-to-exceed" ceiling.

       From examining the orders in question, the Corporation believes that no costs
have been paid exceeding amounts proposed and that no refunds are due.

OIG Finding 10:

"The Corporation Continues to Award Sole Source Purchase Orders Without Adequate
Justification"

OIG Recommendation 10a:
"We recommend that the Corporation follow GSA orderingprocedures when procuring
services on the GSA schedule. Wefurther recommend that the Corporation establish a
reasonable threshold over which its determination of best value must be documented
when purchasing supplies using GSA multiple award schedules.        "




        The Corporation believes it is following required procedures and that the orders
cited are not "sole source" awards. FAR 8.404(a) states:
        "Orders placed against a Multiple Award Schedule (MAS), using the
        procedures in this subpart are considered to be issued using full and open
        competition..."
This same FAR reference goes on to say that:
        "...ordering offices need not seek further competition, synopsize the
        requirement, make a separate determination of fair and reasonable pricing,
        or consider small business programs. GSA has already determined the
        prices of items under schedule contracts to be fair and reasonable. By
        placing an order against a schedule using the procedures in this section,
        the order office has concluded that the order presents the best value and
        results in the lowest overall cost alternative (considering price, special
        features, administrative costs, etc.) to meet the Government's needs."

Nevertheless, the Corporation will take steps to ensure that future GSA schedule orders
are annotated with the rationale for award on Corporation Form 9.
                         APPENDIX 2


cc:   Harris Wofford
      Wendy Zenker
      Bill Anderson
      Simon Woodard
      Patricia Holiday
      Dean Reuter
